Docket No. ________
IN THE

SUPREME COURT OF THE UNITED STATES
In re: AMR Corporation, Debtor.
JOHN KRAKOWSKI, et al.,
Petitioners,
v.
ALLIED PILOTS ASSOCIATION, et al.,
Respondents.

PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

PETITION FOR A WRIT OF CERTIORARI
Joe D. Jacobson, Counsel of Record
Allen P. Press
Jacobson Press P.C.
222 South Central Ave., Suite 550
Clayton, MO 63105
Tel: (314) 899-9790
Email: Jacobson@ArchCityLawyers.com
Attorneys for Petitioners

LEGAL PRINTERS

LLC

! Washington, DC ! 202-747-2400 ! legalprinters.com

QUESTION PRESENTED
A labor union operating under the Railway Labor
Act, 45 U.S.C. §§ 151, et seq., has the exclusive statutory authority to bargain on behalf of the employees
who are members of its collective bargaining unit. This
exclusive bargaining authority brings with it the
“statutory obligation to serve the interests of all
members without hostility or discrimination toward
any, to exercise its discretion with complete good faith
and honesty, and to avoid arbitrary conduct.” Air Line
Pilots Assoc. Int’l v. O’Neill, 499 U.S. 65, 76 (1991).
This statutory obligation is called the union’s duty
of fair representation.
The question presented is:
Where a labor union imposed as part of its collective
bargaining agreement a seniority system that admittedly discriminated in bad faith against a disfavored
employee group at a time when the union owed the
disfavored employees no duty of fair representation
because it did not yet represent them, may the union
subsequently, after the duty of fair representation to
those employees has attached, agree to re-implement
the same discriminatory seniority system following
elimination of the contractual status quo by a bankruptcy court order under 11 U.S.C. § 1113 approving
the employer’s abrogation of the collective bargaining
agreement and its seniority system?

i

LIST OF PARTIES
Petitioners John Krakowski, Kevin Horner, and M.
Alicia Sikes (“Pilots”) are airline pilots. Pilots were
plaintiffs in the two adversary proceedings in the
bankruptcy court and appellants in the district court
and in the court of appeals.
Respondent American Airlines, Inc. (“American” or
“AA”), is an international airline. American was a
defendant in the adversary proceedings in bankruptcy
court and an appellee in the district court and in the
court of appeals.
Respondent Allied Pilots Association (“APA”) is an
unincorporated association and labor union that has
served as the collective bargain representative under
the Railway Labor Act (“RLA”) for all pilots employed
by American at all relevant times. APA was a defendant in the adversary proceedings in bankruptcy court
and an appellee in the district court and in the court of
appeals.
Pilots were all employed by American and represented by APA during the events giving rise to this
dispute. Pilots brought the two adversary actions as
class actions on behalf of a class of similarly-situated
American pilots.

ii

CORPORATE DISCLOSURE STATEMENT
Pilots and the members of the putative class are all
individuals.
American is a Delaware Corporation. American is
100% owned by American Airlines Group, Inc., a
publicly-traded corporation (NASDAQ: AAL). More
than 10% of American Airlines Group’s shares are
owned by The Vanguard Group, Inc.
APA is an unincorporated association of airline
pilots employed by American.

iii

LIST OF PROCEEDINGS
In addition to the proceedings that are the subject
of this Petition for Certiorari, the following proceedings
in federal court are directly related, as that term is
defined in Rule 14(1)(b)(iii), to the case in this Court:
Allied Pilots Assoc. v. AMR Corp. (In re AMR Corp.),
471 B.R. 51, 2012 Bankr. LEXIS 1945, 56 Bankr. Ct.
Dec. (LRP) 102 (Bankr. S.D.N.Y. 2012), subsequent
proceeding In re AMR Corp., 477 B.R. 384, 2012 Bankr.
LEXIS 3756, 194 L.R.R.M. 2035, 2012 WL 3422541
(Bankr. S.D.N.Y. 2012), subsequent proceeding In re
AMR Corp., 478 B.R. 599, 2012 Bankr. LEXIS 4258, 68
Collier Bankr. Cas. 2d 137 (Bankr. S.D.N.Y. 2012).
In re AMR Corp., 2012 Bankr. LEXIS 4169, 194
L.R.R.M. 2152 (Bankr. S.D.N.Y. Sep. 5, 2012), affirmed
sub nom. Supplement B Pilot Beneficiaries v. AMR
Corp. (In re AMR Corp.), 523 B.R. 415 (S.D.N.Y. 2014),
affirmed Supplement B Pilot Beneficiaries v. AMR
Corp. (In re AMR Corp.), 622 F. App’x 64, 2015 U.S.
App. LEXIS 21122 (2d Cir. 2015).
Scerba v. Allied Pilots Ass’n, 2013 U.S. Dist. LEXIS
175291 (S.D.N.Y. Dec. 10, 2013), magistrate’s report
adopted 2014 U.S. Dist. LEXIS 45890 (S.D.N.Y. Mar.
31, 2014), affirmed 589 F. App’x 554, 2014 U.S. App.
LEXIS 18739, 201 L.R.R.M. 3215, 2014 WL 4851713
(2d Cir. 2014), writ denied 135 S. Ct. 2313, 191 L. Ed.
2d 979, 2015 U.S. LEXIS 3374, 83 U.S.L.W. 3856, 203
L.R.R.M. 3148 (2015).
There are no directly-related state court cases.

iv

TABLE OF CONTENTS
PETITION FOR WRIT
Question Presented . . . . . . . . . . . . . . . . . . . . . . . . . . i
List of Parties . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
Corporate Disclosure Statement . . . . . . . . . . . . . . . iii
List of Proceedings . . . . . . . . . . . . . . . . . . . . . . . . . . iv
Table of Contents . . . . . . . . . . . . . . . . . . . . . . . . . . . . v
Table of Cited Authorities . . . . . . . . . . . . . . . . . . . . vii
Opinions Below. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Jurisdictional Facts . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Statutes Involved in the Case . . . . . . . . . . . . . . . . . . 5
Statement of the Case . . . . . . . . . . . . . . . . . . . . . . . . 6
Argument . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31

v

APPENDIX
Court of Appeals Decision (Feb. 1, 2021) . . . . APP-1
Dec. 2019 District Court Decision
(Krakowski II). . . . . . . . . . . . . . . . . . . . . . . . . . APP-4
Oct. 2019 District Court Decision
(Krakowski I) . . . . . . . . . . . . . . . . . . . . . . . . . APP-24
June 2018 Bankruptcy Court Decision
(Krakowski I) . . . . . . . . . . . . . . . . . . . . . . . . . APP-60
April 2017 Bankruptcy Court Decision
(Krakowski II). . . . . . . . . . . . . . . . . . . . . . . . APP-140
Sept. 22, 2015 Bankruptcy Court Decision
(Krakowski II). . . . . . . . . . . . . . . . . . . . . . . . APP-166
Sept. 3, 2015 Bankruptcy Court Decision
(Krakowski I) . . . . . . . . . . . . . . . . . . . . . . . . APP-190
June 2014 Bankruptcy Court Decision
(Krakowski I) . . . . . . . . . . . . . . . . . . . . . . . . APP-219
Denial of Rehearing and
Rehearing En Banc (March 24, 2021) . . . . . APP-236
45 U.S.C. § 152 . . . . . . . . . . . . . . . . . . . . . . APP-238
11 U.S.C. § 1113 . . . . . . . . . . . . . . . . . . . . . . APP-247

vi

TABLE OF CITED AUTHORITIES
Cases

Pages

14 Penn Plaza LLC v. Pyett,
556 U.S. 247 (2009) . . . . . . . . . . . . . . . . . . . . . . . . . 23
Air Line Pilots Assoc. Int’l v. O’Neill,
499 U.S. 65 (1991) . . . . . . . . . . . . . . . . . . . . . . . . . . . i
Baker v. Newspaper & Graphic
Communications Union,
628 F.2d 156 (D.C. 1980) . . . . . . . . . . . . . . . . . . . . . 26
Bakos v. American Airlines, Inc.,
2017 U.S. Dist. LEXIS 98671 (E.D. Pa. 2017),
aff’d, 748 Fed. Appx. 468 (3d Cir. 2018) . . . . . . . . . . 9
Bensel v. Allied Pilots Ass’n,
387 F.3d 298 (3d Cir. 2004) . . . . . . . . . . 6, 7–8, 10, 24
Bernard v. Air Line Pilots Asso., Int’l,
873 F.2d 213 (9th Cir. 1989) . . . . . . . . . . . . . . . . . . 23
Local 1251, UAW v. Robertshaw Controls Co.,
405 F.2d 29 (2d Cir. 1968) . . . . . . . . . . . . . . . . . . . . 26
Northwest Airlines Corp. v. Assoc. Flight
Attendants-CWA (In re Nw. Airlines Corp.),
483 F.3d 160 (2d Cir. 2007) . . . . . . . . . . . . . . . . . . . 26
Williamson v. Bethlehem Steel Corp.,
468 F.2d 1201 (2d Cir. 1972) . . . . . . . . . . . . . . . . . . 26
vii

Statutes and Rules
11 U.S.C. § 1113 . . . . . . . . . . . . . . . . . . . . . . . . passim
28 U.S.C. § 158 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
28 U.S.C. § 1331 . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 4
28 U.S.C. § 1337 . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 4
28 U.S.C. § 1412 . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 4
29 U.S.C. §§ 151, et seq. . . . . . . . . . . . . . . . . . . . . i, 23
45 U.S.C. §§ 151, et seq. . . . . . . . . . . . . . . . . . . . . . . . 3
45 U.S.C. § 152 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
49 U.S.C. § 42112 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Rule 4(a)(2), F.R.A.P. . . . . . . . . . . . . . . . . . . . . . . . . . 4
Other Authorities
Dawson, Andrew B., Collective Bargaining
Agreements in Corporate Reorganizations,
84 Am. Bankr. L.J. 103 (2010). . . . . . . . . . . . . . 24–25
Ruben, George, U.S. Bureau of Labor
Statistics, “Modest labor-management bargains
continue in 1984 despite the recovery,”
Monthly Labor Review (Jan. 1985) . . . . . . . . . . . . . 28
viii

Other Sources
Canadian Union of Public Employees
https: //cupe.ca/fact-sheet-two-tierbargaining-how-recognize-it-and-reject-it . . . . . . . . 29
Teamsters for a Democratic Union
https://www .tdu.org/how_two_tier_
contracts_hurt_workers_and_weaken
_unions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
United Electrical, Radio & Machine
Workers of America
https://www.ueunion.org/stw _twotier.html . . . . . 29

ix

OPINIONS BELOW
Krakowski v. Allied Pilots Association., 834 Fed.
Appx. 660, 2021 U.S. App. LEXIS 2644, 2021 WL
319443, Appeal Nos. 19-3506 (L), 19-4378 (CON) (2d
Cir. Feb. 1, 2021), reh’g and reh’g en banc denied Doc.
No. 156 (March 24, 2021).
Krakowski v. American Airlines, Inc., 610 B.R. 714,
2019 U.S. Dist. LEXIS 218479, 2019 WL 6879517, Case
No. 17-CV-03237 (S.D.N.Y. Dec. 17, 2019) (“Krakowski
II”).
Krakowski v. American Airlines, Inc., 610 B.R. 434,
2019 U.S. Dist. LEXIS 171319, Case No. 18-cv-06187
(S.D.N.Y. Oct. 2, 2019) (Krakowski I”).
Krakowski v. American Airlines, Inc. (In re AMR
Corp.), 2018 Bankr. LEXIS 1726, 2018 L.R.R.M.
208039, Adv. No. 13-01283 (Bankr. S.D.N.Y. June 12,
2018) (“Krakowski I”).
Krakowski v. American Airlines, Inc. (In re AMR
Corp.), 567 B.R. 247, 2017 Bankr. LEXIS 1035, 64
Bankr. Ct. Dec. 6, Adv. No. 14-01920 (Bankr. S.D.N.Y.
April 14, 2017) (“Krakowski II”).
Krakowski v. American Airlines, Inc. (In re AMR
Corp.), 538 B.R. 213, 2015 Bankr. LEXIS 3189, Adv.
No. 14-01920 (Bankr. S.D.N.Y. Sept. 22, 2015)
(“Krakowski II”).
Krakowski v. American Airlines, Inc. (In re AMR
Corp.), 536 B.R. 360, 2015 Bankr. LEXIS 3038, 61
Bankr. Ct. Dec. 138, Adv. No. 13-01283 (Bankr.
S.D.N.Y. Sept. 3, 2015) (“Krakowski I”).
1

Krakowski v. American Airlines, Inc. (In re AMR
Corp.), 2014 Bankr. LEXIS 2610, 199 L.R.R.M. 3584,
164 Lab. Cas. (CCH) P10,695, Adv. No. 13-01283
(Bankr. S.D.N.Y. June 3, 2014) (“Krakowski I”).

2

JURISDICTIONAL FACTS
This is a petition for a writ of certiorari to the
United States Court of Appeals for the Second Circuit.
The court of appeals issued its judgment February 1,
2021 (Appeal No. 19-3506, Doc. 149-1). A petition for
rehearing or rehearing en banc was timely filed February 16, 2021 (Doc. 153) and denied March 24, 2021
(Doc. 156).
The court of appeals had jurisdiction under 28
U.S.C. § 158(d)(1) from the final judgments of the
United States District Court for the Southern District
of New York in a pair of appeals to that district court
from the final orders of the United States Bankruptcy
Court for the Southern District of New York. The bankruptcy court orders were entered in two separate but
related adversary actions. The district court had jurisdiction to hear the appeals from the bankruptcy court’s
final orders under 28 U.S.C. § 158(a)(1).
This was a consolidated appeal from two separate
judgments. The first case, referred to as Krakowski I,
was filed in the United States District Court for the
Eastern District of Missouri on May 1, 2012, Case No.
12-cv-00954-JAR. The district court had jurisdiction
under 28 U.S.C. §§ 1331 and 1337 because the action
was filed under the Railway Labor Act, 45 U.S.C.
§§ 151, et seq. The Eastern District of Missouri exercised its discretion under 28 U.S.C. § 1412 to transfer
the action to the bankruptcy court, which had a thenpending bankruptcy, In re AMR Corp., Case No.
11-15463. (E.D. Mo Case No. 12-cv-00954-JAR, Doc.
37). The transferred case was docketed by the bank3

ruptcy court as Adversary Proceeding No. 13-01283.
The bankruptcy court entered its final order June 12,
2018 (Doc. 151) and a notice of appeal to the district
court was timely filed June 26, 2019 (Doc. 153). The
district court entered its judgment affirming the final
order of the bankruptcy court October 2, 2019 (Doc. 31)
and a notice of appeal to the court of appeals was
timely filed October 23, 2019 (Doc. 32).
The second case, referred to as Krakowski II, was
filed in the United States District Court for the Eastern District of Missouri on March 3, 2013, Case No.
13-cv-00838-RWS. The district court had jurisdiction
under 28 U.S.C. §§ 1331 and 1337 because the action
was filed under the Railway Labor Act, 45 U.S.C.
§§ 151, et seq. The Eastern District of Missouri exercised its discretion under 28 U.S.C. § 1412 to transfer
the action to the bankruptcy court, which had a thenpending bankruptcy, In re AMR Corp., Case No. 1115463. (E.D. Mo Case No. 13-cv-00838-RWS, Doc. 15).
The transferred case was docketed by the bankruptcy
court as Adversary Proceeding No. 14-01920-SHL. The
bankruptcy court entered a memorandum of decision
dismissing the action April 14, 2017 (Doc. 54) and a
notice of appeal to the district court was filed April 28,
2017 (Doc. 56). A final order of dismissal was filed by
the bankruptcy court May 9, 2017 (Doc. 59). The notice
of appeal was deemed filed as of that date. Rule 4(a)(2),
Federal Rules of Appellate Procedure. The district court
entered its judgment affirming the final order of the
bankruptcy court December 18, 2019 (Doc. 20) and a
notice of appeal to the court of appeals was timely filed
December 23, 2019 (Doc. 21).

4

STATUTES INVOLVED IN THE CASE
The statutes involved in the case are: (1) the Railway Labor Act, specifically 45 U.S.C. § 152, which is
the section of the RLA granting the collective bargaining representative, or union, the exclusive right to
represent the members of its collective bargaining unit,
which exclusive right gives rise to the union’s duty of
fair representation; and (2) 11 U.S.C. § 1113, the
section of the Bankruptcy Code authorizing an employer who is a debtor-in-possession in bankruptcy to,
among other things, abrogate its collective bargaining
agreement with a union representing the employer’s
employees.
The two statutes are set out in full in the Appendix.

5

STATEMENT OF THE CASE
In 2001, American entered into an agreement with
Trans World Airlines (“TWA”) to acquire TWA’s assets,
including its aircrafts, routes, and gates, and to hire
almost all of TWA’s unionized employees. Bensel v.
Allied Pilots Ass’n, 387 F.3d 298, 301 (3d Cir. 2004).
APA was the collective bargaining representative for
the American pilots. The TWA pilots were represented
by a different union.
American conditioned the asset purchase on TWA
filing for bankruptcy and on the waiver of the TWA
pilots’ right to have their seniority position within the
consolidated airline determined by a neutral arbitrator
— a contractual labor-protective provision referred to
as the pilots’ Allegheny-Mohawk rights. Id. When the
TWA pilots resisted this demand, TWA filed a motion
in bankruptcy court under 11 U.S.C. § 1113 to abrogate
the pilots’ collective bargaining agreement. The threat
of contract abrogation caused the TWA pilots to waive
their Allegheny-Mohawk rights. Id. at 302.
With the elimination of the TWA pilots’ right to
compel a seniority integration arbitration, APA had a
free hand to negotiate directly with American to decide
the TWA pilots’ future positions within the future
integrated seniority list. APA negotiated an amendment to its collective bargaining agreement (“CBA”)
with American that gave the TWA pilots dramatically
reduced seniority on the combined list. This amendment was known as Supplement CC. Under Supplement CC, more than half the incoming TWA pilots,
about 1,200 in all, were stapled to the bottom of the
6

seniority list with no seniority. The remaining 1,100
TWA pilots were integrated into the list with only a
small fraction of their former seniority at TWA. As a
result, TWA pilots with a dozen years of flying experience were made junior to American pilots with only a
day of flying experience.1
At the time the seniority lists were integrated, APA
and its officers acknowledged the unfairness of the
seniority integration to the TWA pilots. APA could get
away with disadvantaging the TWA pilots as severely
as it did in Supplement CC because at the time the
seniority lists were integrated, the TWA pilots were
not members of the American pilots bargaining unit to
which APA owed a duty of fair representation. [R. 49495].
APA successfully argued before the Third Circuit in
an appeal from a class action brought by former TWA
pilots that APA was free to treat the TWA pilots in a
discriminatory and bad faith manner because it owed
no duty of fair representation to the former TWA pilots
until APA was certified by the National Mediation
Board (“NMB”) as the pilots’ representative on April 3,
2001. Bensel, 387 F.3d at 303, 312-15.
The Third Circuit held that the creation of a
nominally-independent “TWA, LLC” by American to
hold the TWA pilots before the merger of the two pilot
groups immunized APA from liability: “This fiction

1

See Appellants’ Appendix in the Court of Appeals for the
Second Circuit (“Record” or “R.”) at 491, 492-93. Record consists of
two consecutively-numbered volumes.

7

enabled APA to unilaterally negotiate the Class’ seniority with American without the Class’ input.” Id. at 314.
The extreme and prejudicial seniority integration
established by Supplement CC was mitigated somewhat by the reservation of a fixed number of Captain
positions for the former TWA pilots as well as by the
establishment of a protective “fence” giving the former
TWA pilots a preference in bidding on flights into and
out of TWA’s former hub in St. Louis. The reserved
Captain positions and the protective fence were established by Supplement CC. APA acknowledged that the
reserved Captain seats and protective fence, which
provided some job protection to the former TWA pilots,
were “integral” to the seniority list. [R. 493].
Without the protective aspects of Supplement CC,
most of the former TWA Captains would have been
immediately demoted to First Officer because their
resulting seniority would not allow them to successfully bid for a Captain position at American. APA
recognized that these protective aspects of Supplement
CC were necessary to prevent the legacy American
pilots from reaping a further unfair windfall by gaining
employment advancement opportunities that belonged
to the former TWA pilots before the merger of the two
pilot groups. [R. 158, 493].
The protective aspects of Supplement CC notwithstanding, the seniority integration of the TWA pilots
into the American pilots’ seniority list is recognized as
the most unfair and one-sided seniority integration in
aviation history. It led directly to Congress passing a
law to prevent a recurrence of such an unfair airline
seniority integration in the future. That law is known
8

as the McCaskill-Bond Amendment, codified at 49
U.S.C. § 42112. [R. 493-94]. See Bakos v. American
Airlines, Inc., 2017 U.S. Dist. LEXIS 98671, *5-6 (E.D.
Pa. 2017), aff’d, 748 Fed. Appx. 468 (3d Cir. 2018).
Supplement CC’s protections, while critical to the
former TWA pilots in preserving a portion of the
economic opportunities the TWA operations brought to
the merged air carrier, had minimal impact on the
much larger group of legacy American pilots. Nevertheless, there were several attempts in the years following
the merger by legacy American pilots to get the APA
Board to pass resolutions to terminate those protections. The APA’s Board, however, recognized that “the
protections and restrictions of Supplement CC go hand
in hand with the seniority numbers; if you change one,
you have to change the other.” In its official communications to its members, APA stated that it would be
“unfair and discriminatory” to terminate Supplement
CC’s protections for the former TWA pilots without
restoring their seniority. [R. 495-96].
Due to the interconnected nature of the seniority
list and the job protections in Supplement CC, and
because APA was unwilling to adjust the former TWA
pilots’ seniority upward to eliminate the need for those
job protections, APA’s Board never passed a resolution
to terminate the Supplement CC job protections. [R.
495-96].
Ten years after its acquisition of the TWA assets
and pilots, American was in bankruptcy. Pursuant to
11 U.S.C. § 1113, American began negotiating with
APA to amend the CBA as part of American’s reorganization. American proposed to APA that Supplement
9

CC’s job protections for the former TWA pilots be eliminated while keeping the former TWA pilots in their
inferior positions on the seniority list. APA immediately agreed to American’s proposal, notwithstanding
that it would directly and discriminatorily harm the
former TWA pilots to whom APA now owed a duty of
fair representation. [R. 496].2
APA’s willingness to agree that American could end
the Supplement CC’s protections alarmed the former
TWA pilots. APA’s General Counsel Edgar James
addressed their concerns in a February 2012 letter to
a lawyer representing former TWA pilots. In this letter
James stated APA’s intentions about the proposed
termination of Supplement CC:
APA well understands its duty to fairly represent all pilots. … We recognize that the minimum staffing requirements in Supplement CC
were intended to provide protections for former
TWA pilots within the parameters of that
document. To the extent that the restructuring
negotiations result in the diminution or modification of those protections, APA intends to
pursue conditions which will result in provisions
reflecting the protections provided under
Supplement CC.
2

As observed by the Third Circuit in Bensel, the legal
loophole permitting APA to treat the former TWA pilots in a
discriminatory and bad faith manner closed April 3, 2001, when
the NMB recognized APA as the former TWA pilots’ collective
bargaining representative. “It is only subsequent to April 3, 2002
that APA held a statutory duty to the Class.” Bensel, 387 F.3d at
314

10

[R.274].
Ultimately, American and APA could not agree to
other changes in the CBA demanded by American.
Unable to negotiate a modification of the CBA, American sought and obtained an order from the bankruptcy
court under 11 U.S.C. § 1113 abrogating the CBA in its
entirety. This order abrogated the entire CBA, including its seniority list and Supplement CC, thus clearing
the way for a new CBA to be negotiated between
American, as debtor-in-possession, and APA. [R. 496].
Although Supplement CC was terminated, American
continued “to apply certain terms of Supplement CC as
non-contractual employment conditions for former
TWA Pilots.” [R. 375]. American’s continued application of these certain terms was “non-contractual”
because the abrogation eliminated the status quo relating to Supplement CC and the abrogated seniority list.
American’s abrogation of the CBA allowed APA the
opportunity to correct the harm caused to the former
TWA pilots in the 2001 seniority integration. Indeed,
with the contractual slate wiped clean by the bankruptcy court’s abrogation order, APA had a duty to
negotiate new provisions that did not treat any of the
pilots whom it represented, and to whom it owed a
duty of fair representation, in a manner that was
discriminatory or in bad faith. Notwithstanding its
duty, APA soon agreed with American to enter into a
new CBA that reinstated the abrogated seniority list,
a list that was admittedly discriminatory against the
former TWA pilots, but without reinstating the reserved Captain seats and protective fence former Supplement CC had provided. [R. 497]. As a result, those
11

former TWA pilots still in the bargaining unit would
suffer the full discriminatory and harmful impact of
the unfair seniority integration without any mitigation
through job protections.
Recognizing the harsh impact of the re-imposition
of the abrogated discriminatory seniority list combined
with the abrogation of the Supplement CC job protections, American and APA agreed to an arbitral process
for the purported objective of addressing the “loss of
flying opportunities” suffered by the former TWA
pilots. This agreement was reflected in a letter of
agreement entered into by American and APA denominated LOA 12-05, which provided that American and
APA would engage in interest arbitration to establish
alternative contractual rights for the former TWA
pilots.
LOA 12-05 imposed material limitations on what
alternative rights the arbitrators could award. These
limitations included that the contractual rights must
be non-economical, i.e., that they not cost American
any money (except for training), and that they not
modify the seniority list that American and APA had
just (re)established:
The Company [American] and APA agree that
the TWA Pilots’ existing seniority placements on
the Pilots’ System Seniority List are final and
shall continue pursuant to Section 13 of the
CBA notwithstanding the termination of Supplement CC and any preferential flying rights
associated with those seniority placements. …

12

The arbitrators shall decide what non-economic
conditions should be provided to TWA Pilots as
a result of the loss of flying opportunities due
the termination of Supplement CC and the closing of the STL base, provided that training costs
associated with the closure of the base shall be
considered non-economic. In no event shall the
arbitrators have authority to modify the Pilots’
System Seniority List, require the establishment
or continuation of any flight operation at any
location, or impose material costs beyond training costs on the Company, and any preferential
flying rights under the award shall not modify
or be deemed a modification of the TWA Pilots’
seniority placements on the Pilots’ System
Seniority List.
[R. 375, 376].
The bankruptcy court in its orders mocked Pilots’
assertion that the arbitration to replace the Supplement CC job protections was intended to “replicate” the
protections established in Supplement CC. [See, e.g.,
Appendix (“APP.”) at 68, 84–85, 99–101, 203–06, 223],
The bankruptcy court went so far as to declare that,
“One cannot build even a metaphorical fence around
something that does not exist.” [APP-40].3 The district
court followed the bankruptcy court’s lead [APP-30, 33,
38, 39–42, 54] and, in turn, the Second Circuit adopted
3

Pilots did not ask that a fence, metaphorical or otherwise,
be built around the to-be-closed St. Louis base or any other base.
Rather, they merely asked for job protections that would replicate
the level of protection they had had under Supplement CC.

13

both the district court’s and the bankruptcy court’s
multiple opinions as its own. [APP-2].
Yet “replicate” is how APA sold the reinstatement
of the abrogated seniority list and the replacement of
Supplement CC with the LOA 12-05 arbitration to the
members of its collective bargaining unit, including the
former TWA pilots. Sometimes using the term
“replicate” and sometimes phrasing it slightly differently, APA consistently represented that the intention
of the LOA 12-05 arbitration was to provide the same
level of job protections the former TWA Pilots had had
under Supplement CC. APA made this representation
on numerous occasions and in numerous venues —
excluding critically, however, on the most important
occasion and in the most important venue, that is,
during the LOA 12-05 arbitration itself.
APA attorney Steven Hoffman, in commenting on
an early draft of LOA 12-05, asked his law partner Ed
James, the APA’s General Counsel, whether the document’s description of the scope of the remedy would
“adequately cover the rights Supp CC currently provides to the STL pilots.” [R. 277].
APA Board member Doug Gabel, a former TWA
pilot and a member of APA’s negotiating team during
the American bankruptcy, was involved in drafting
LOA 12-05. Gabel expressed his concerns with the
initial draft of proposed LOA 12-05. He worried that if
the arbitrators were entirely precluded from modifying
seniority, then any preferential flying of any type could
be argued to be a de facto modification of the seniority
list and thus outside the scope of what could be considered by the arbitrators. [R. 161].
14

APA General Counsel James told Gabel that his
fears were “silly” because modifying the seniority list
was limited to the concept of literally changing the
seniority order and that no one could argue that a job
preference of some type was a seniority modification
prohibited by LOA 12-05. [R. 161].
Gabel replied to James: “I am still troubled that
someone might make the case that any substitute protections are a de facto change in the former TWA pilots’
placement on the seniority list.” Gabel then spoke with
James and with American’s lawyer about his concern.
The lawyers said they understood Gabel’s concern and
would address it in the next draft of the agreement.
The next, and final, draft of LOA 12-05 included the
following new language: “any preferential flying rights
under the award shall not modify or be deemed a
modification of the TWA Pilots seniority placements on
the Pilots System Seniority List.” The lawyers assured
Gabel that this new wording made it clear and would
preclude any objection to a proposed award of preferential flying rights to the TWA pilots as being a de facto
modification to the seniority list. This assurance by
APA’s and American’s lawyers satisfied Gabel that the
LOA 12-05 arbitration would result in job protections
for the former TWA pilots that would replicate Supplement CC’s protections. [R. 161].
The new proposed CBA that included LOA 12-05
was put out for member ratification in December 2012.
APA General Counsel James came to St. Louis for a
pilot meeting to explain the proposed new CBA.
Former TWA pilot Dave Williams met privately with
James in advance of the meeting to discuss proposed
15

LOA 12-05 and the interest arbitration it provided.
James assured Williams that the protections provided
by Supplement CC would be replicated so they would
be “just like they were in 2001.” At the pilots meeting,
James explained to the pilot group, consisting mostly
of former TWA pilots: “It will be up to the arbitration
and particularly your base and team to determine what
the protections, replication of Supp CC will be.” [R.
289].
Following APA’s repeated assurances that the
objective of LOA 12-05 was to replicate Supplement
CC’s protections, the new CBA received pilot approval,
including from a majority of the former TWA pilots.
American then sought approval of the CBA from the
bankruptcy court. In addressing the bankruptcy court,
and in response to objections from former TWA pilots,
APA General Counsel James told the bankruptcy
court:
What’s happening now is the company is closing
St. Louis as the result of the abrogation of Supp
CC and we said there was protected flying that
we promised those pilots back in 2001 and so
we’re going to go to three members of the
National Academy of Arbitrators, they will
decide how to replicate those protections and the
debtors agreed with us to do that. Just take it
out of our hands, say here was the intent back in
2001, let these three respected neutrals decide
how to replicate those protections. …
… not only do we have the legal duty to go in
and make the presentation on what ought to
16

happen … we think that’s the only fair way to
try and see if we can replicate what happened in
2001.
[R. 293-94].4
The Bankruptcy Court approved the new CBA. APA
and American began preparing for the LOA 12-05 arbitration. James reiterated the goal of the arbitration in
a February 2013 email to Gabel shortly before the
arbitration began, stating: “the purpose of the interest
arbitration is to develop non-seniority protections
equivalent to the ones Supplement CC provided ― not
better or worse than them.” [R. 298-99]. While this
statement said “equivalent” rather than “replicate,” it
meant the same: new job protections as good as the old.
The LOA 12-05 process, however, mandated the reimposition of an admittedly discriminatory seniority
list and limited arbitral authority to non-economic

4

The bankruptcy judge suggested in open court that what
the objecting former TWA pilots were seeking was an order
keeping the St. Louis base open, fence and all. [R. 294]. APA’s
General Counsel James corrected the court, noting that objecting
pilots “would concede” that the St. Louis base was closing and that
what they wanted was to reopen the 2001 seniority integration,
which was something to which APA would not agree. “We’re not
going back and redoing the whole integration from 2001.” James
then reiterated: “we’re going to let the arbitrators decide how to
replicate that which they’re losing.” [R. 295].
The bankruptcy judge nevertheless persisted in his written
orders in his mistaken belief that the request to “replicate” meant
that the objectors sought to keep the St. Louis base open and
fenced.

17

mitigation of the economic harm visited upon the
former TWA pilots. With these limits upon the arbitrators, combined with the abandonment of procedural
provisions that provided for a position advocated by
APA instead of by competing pilot groups, see infra at
19, it is not surprising that the LOA 12-05 arbitration
award did not come close to replicating the job protections in Supplement CC. Only 346 Captain positions
were reserved for the former TWA pilots, just 32% of
the 1,060 Captain positions reserved by Supplement
CC, and the award states that number of Captain
positions can never be increased. [R. 165-66].
The arbitration award also did not provide the
former TWA pilots any protected opportunities to fly.
While former TWA pilots were previously able to
successfully bid for flights out of St. Louis notwithstanding their low seniority because of the protective
fence, with no protected flying provided to replace that
lost when the St. Louis base closed, the former TWA
pilots became unable to successfully bid for flights
anywhere because of their low seniority numbers. As a
result, nearly all of the former TWA pilots, including
nearly all of those holding reserved Captain seats, were
placed on “reserve pilot” status. A reserve pilot flies
only when a regularly scheduled pilot is unable to fly.
Reserve pilots are paid substantially less than pilots
who have regularly scheduled flights. This situation,
and the resulting reductions in pay, continued for
years. [R. 165-66].
The result of the arbitration, which discriminated
against and harmed only the former TWA pilots, was
the natural result of the arbitration process APA
18

adopted. It was a highly partisan process covered with
a gloss of neutrality.
An early draft of LOA 12-05 prepared by American
called for “participation [at the arbitration] by both
TWA Pilots and AA Pilots.” APA General Counsel
James directed that the language be removed, explaining to his law partner Hoffman that he was “of the
view that it is APA v. AA, and we get an institutional
position rather than invite the AA pilots to beat up on
the TWA pilots without the latter being able to
threaten to re-open the seniority list.” [R. 155]. The
provision calling for pilot group participation at the
arbitration was therefore removed and replaced with
the final language of LOA 12-05, which states: “the
Company and APA will engage in final and binding
interest arbitration …” [R. 375].
In obtaining bankruptcy court approval of LOA
12-05, James affirmed that American and APA would
be the parties to the arbitration, not separate pilot
groups, and represented that “we [APA] have the legal
duty to go in and make the presentation [to the arbitrators] on what ought to happen” with the TWA pilots.
[R. 294]. APA, however, then did almost nothing to
develop an official institutional position that it could
advocate at the arbitration and ultimately declined to
take an institutional position at all.
APA’s Negotiating Committee did nothing to
develop an official APA position to present at the
arbitration. [R. 306-07]. If they had done so, then their
fulfillment of their “legal duty” to develop an official
union position would have subjected that position to
the standards inherent in the duty of fair represen19

tation. Instead, in an apparent effort to evade their
duty, APA told legacy American pilot Mark Stephens
and former TWA pilot Gabel to develop APA’s position
for the arbitration. Stephens and Gable had just one
substantive meeting and that meeting did not produce
any agreement about what APA’s institutional position
should be. Thereafter, despite its acknowledged “legal
duty” to do so, APA made no further effort to develop
an institutional position for the arbitration. [R. 101].
Instead, APA announced it would be “neutral” and
not present an official institutional position at the arbitration. It instead created two ad hoc pilot committees,
one a legacy “AA Pilots Committee” and the other a
former “TWA Pilots Committee,” giving each committee “party status” and funding to present competing
proposals against each other and American at the
arbitration. [R. 142].
Using its purported neutrality as an excuse, APA
declined to inform the arbitrators that the intent of
LOA 12-05 was to replicate the protections provided by
Supplement CC — not by building a metaphorical
fence around a non-existent base, but by providing a
level of job protections equivalent to those that had
been provided by Supplement CC’s reserved Captain
positions and protective fence.
APA’s “neutrality” allowed its AA Pilots Committee
to submit a proposal that eliminated most of the
protected Captain positions provided under Supplement CC, effectively transferring 313 Captain positions
held by former TWA pilots to legacy American pilots.
The AA Pilots Committee’s proposal suggested that the
arbitrators mitigate this lose of Captain jobs by requir20

ing American to continue to pay the 313 former TWA
pilots as though they were still Captains. This suggestion by the AA Pilots Committee, if accepted, would
have imposed material costs upon American — an
outcome which was explicitly prohibited by LOA 12-05
and thus outside the power of the arbitrators. [R. 163].
APA knew that its AA Pilots Committee was going
to make their improper and predatory proposal before
the proposal was submitted to the arbitrators. The
Chairman of the AA Pilots Committee admitted he
discussed the proposal with APA’s Board — excluding
the two former TWA pilots who served on the Board —
before the arbitration. [R. 292-94].
The hearing soon made clear that APA’s fake
neutrality was designed to aid the legacy American
pilots in their efforts to deprive the former TWA pilots
of all job protections.
American’s lawyer noted in his opening remarks
that, “The AA Committee’s proposal gives no preferential flying opportunities to the TWA pilots outside of
St. Louis. So right off the bat, it’s not responsive to
what’s been asked of this Board.” [R. 164]. American’s
lawyer however, also disavowed the representations
previously made to the TWA pilots and the bankruptcy
court that the intent of LOA 12-05 was to replicate the
economic protections previously provided by Supplement CC, stating: “Replicate … is not the standard.”
APA General Counsel James, who attended the
hearing, sitting at counsel table, did nothing to correct
this misstatement, claiming simply that APA was
“neutral.” [R. 164].
21

American and APA’s AA Pilots Committee both
then presented arguments that violated the agreement
surrounding the clarifying language added to LOA
12-05 at Gabel’s request. Each argued to the arbitrators that the clarifying language meant that the job
preferences advocated by the TWA Pilots Committee
were de facto modifications of the seniority list and
thus prohibited by LOA 12-05. Thus they made the
very argument that APA General Counsel James had
told Gabel in October 2012 would be “silly” to make,
and for which the clarifying language was added to
establish that this was not the intent. [R. 164].
James again sat silent and took no action to present
to the arbitrators the agreed-upon intent of LOA 12-05
that the Supplement CC protections would be replicated, notwithstanding that he told the former TWA
pilots that this was the intent of LOA 12-05 to induce
the former TWA pilots to support the new CBA and
LOA 12-05. [R. 164].
In the end, as the result of APA’s actions in negotiating the new CBA and its LOA 12-05, and as a result of
APA’s fake neutrality during the interest arbitration,
the former TWA pilots ended up materially worse visaa-vis the legacy American pilots than they had been
previously under the abrogated CBA, seniority list, and
Supplement CC protections.

22

ARGUMENT
This case sits at the confluence of two important
issues relating to collective bargaining agreements
under federal labor law. The first relates to the duty of
fair representation. The duty of fair representation in
the context of collective bargaining is simply the duty
of the collective bargaining agent, or union, not to discriminate against or intentionally harm disfavored
members of the bargaining unit in negotiating the
union’s CBA with the employer. Bernard v. Air Line
Pilots Asso., Int’l, 873 F.2d 213, 216 (9th Cir. 1989).5
The duty of fair representation contains a loophole:
a union can lawfully discriminate against and intentionally harm a disfavored group if the members of the
group are not employees currently represented by the
union. This loophole allows a union to negotiate discriminatory and intentionally harmful CBA terms and
conditions applicable to future members of the bargaining unit. When the disfavored group are not yet
members of the bargaining unit, the union can discriminate against them because the union does not owe
them a duty of fair representation.
The pre-bankruptcy relationship of the former TWA
pilots to their union, the APA, presents a textbook case
of aggressive albeit lawful discrimination using this

5

Unions operating under the National Labor Relations Act,
29 U.S.C. §§ 151, et seq. (“NLRA”), owe the same duty of fair
representation to their members. 14 Penn Plaza LLC v. Pyett, 556
U.S. 247 (2009). Thus this case presents issues of broader interest
than to just those in the railway and aviation industries.

23

loophole. Before the former TWA pilots became members of the American pilots bargaining unit, the APA,
APA, acting on behalf of its then-members, the legacy
AA pilots, negotiated with American a seniority integration between the legacy AA pilots and the incoming
TWA pilots that discriminated against and intentionally harmed the latter. While this seniority integration
eliminated most of the seniority and related job opportunities that the pilots had accrued at TWA, APA did
not violate its duty of fair representation to them
because APA did not owe a duty to the TWA pilots
whom it did not yet represent. Bensel v. Allied Pilots
Ass’n, 387 F.3d 298 (3d Cir. 2004).
The second important doctrine at issue in this case
relating to collective bargaining comes from the ability
of an employer who becomes a bankruptcy debtor-inpossession to obtain an order allowing it to reject its
collective bargaining agreements with its employees as
part of its reorganization. 11 U.S.C. § 1113.
Employers with unionized work forces who become
debtors-in-possession in bankruptcy routinely seek to
reject their CBAs. Bankruptcy courts consistently issue
Section 1113 orders abrogating CBAs at the request of
those employers. Andrew B. Dawson, Collective Bargaining Agreements in Corporate Reorganizations, 84
Am. Bankr. L.J. 103, 114-16 (2010).
In this study of every large publicly-traded company
bankruptcy filed between 2001 and 2007, researchers
identified each bankruptcy case in which the debtor
was a large publicly-traded company with a unionized
workforce. 316 large publicly-traded company bankruptcies were filed in the time period. Of these, 136 of
24

the companies had a unionized workforce. Id. at 116.
The researchers then analyzed court records to identify
in which of these 136 bankruptcy cases a Section 1113
motion was filed. The researchers found that employers filed at least one Section 1113 motion to reject a
CBA in 30 of the 136 cases. In other words, a Section
1113 motion was filed in 22% of the cases. Those 30
cases had a total of 103 Section 1113 motions filed, as
some companies had CBAs with multiple unions representing different employee groups. The majority of the
Section 1113 motions — 62 out of 103 — were settled,
presumably with an agreed modification to the CBA.
Nine other Section 1113 motions were never ruled
upon because the employer failed to reorganize. Of the
remaining 32 motions, the CBA was abrogated by the
bankruptcy court in every instance. Only once in all
these cases over seven years did a bankruptcy court
deny an employer’s Section 1113 motion — and that
court granted a second motion to abrogate the CBA. Id.
Our case presents the collision of these two common
issues in labor law: first, the use by labor unions of a
loophole in the duty of fair representation that allows
them to discriminate against or intentionally harm
incoming or other future employees who are not yet
part of the collective bargaining unit; and, second, the
use by employers of Section 1113 of the Bankruptcy
Code to abrogate their CBAs and thereby eliminate the
status quo in the workplace. These two common issues
collide because by the time the employer abrogates the
CBA in bankruptcy, the disfavored group of employees,
who have been the victims of intentional discrimination, perhaps for years, are now members of the collective bargaining unit and thus are owed a duty of fair
25

representation by their union the same as all of the
other bargaining unit members.
An abrogated seniority list is no longer part of the
status quo. “Seniority is wholly a creation of the collective agreement and does not exist apart from that
agreement.” Williamson v. Bethlehem Steel Corp., 468
F.2d 1201, 1205 (2d Cir. 1972), quoting Local 1251,
UAW v. Robertshaw Controls Co., 405 F.2d 29, 33 (2d
Cir. 1968) (en banc); Baker v. Newspaper & Graphic
Communications Union, 628 F.2d 156, 160 (D.C. 1980)
(following Local 1251).
Once a bankruptcy court grants a Section 1113
motion to abrogate a CBA, the CBA “cease[s] to exist,”
and the status quo previously created by the CBA is
terminated. Northwest Airlines Corp. v. Association of
Flight Attendants-CWA (In re Nw. Airlines Corp.), 483
F.3d 160, 169-70, 173 (2d Cir. 2007). In short, there is
no seniority status quo after a CBA’s abrogation.
Nevertheless, the bankruptcy court here inconsistently
allowed APA to reinstate the abrogated seniority list
without simultaneously requiring it to replicate the job
protections provided by Supplement CC on the basis
that Supplement CC was “part of the pilots’ collective
bargaining agreement that was swept away by the
Court’s grant of Section 1113 relief.” Krakowski II, 567
B.R. 247, 256 [APP-155 (citing prior Krakowski decisions)]. This holding was affirmed by the district court
and the court of appeals.
Thus the collision of the two important issues in
labor law described above, along with the fundamental
legal principle that a seniority list that is abrogated
26

ceases to exist, brings us to the heart of the issue, as
set out in the Question Presented, to-wit:
When a discriminatory or intentionally harmful
CBA is abrogated and thus no longer part of the workplace status quo, can the union nonetheless reinstate
its discriminatory provisions in a new CBA without
breaching the union’s duty of fair representation to the
disfavored employees intentionally harmed by those
discriminatory provisions?
And, assuming that the re-adoption of the discriminatory provisions of an abrogated CBA in a new CBA
can somehow be viewed as simply restoring the status
quo, does that conclusion change and does the union’s
conduct breach its duty of fair representation if, in
reinstating the abrogated discriminatory provisions,
the new CBA fails to reinstate other provisions of the
abrogated CBA that had once helped mitigate the
intentional harm of the discriminatory provisions?
These are questions the courts below assiduously
failed to answer, or even acknowledge, despite multiple
attempts by Pilots to raise them. Instead, the bankruptcy court, the district courts, and the court of
appeals all adopted the internally inconsistent position
that the Section 1113 order eliminated the status quo
with respect to the Supplement CC job protections
while preserving unabated the status quo of its integral
seniority list.
The question presented by the petition for certiorari
is important and worthy of the Court’s attention
because this combination of conditions, that is, union
discrimination in a bankruptcy proceeding against dis27

favored members of a collective bargaining unit who
were merely future members when their abrogated
discriminatory CBA was adopted, can be expected to
occur many times in the future. It can be expected to
occur not just in cases where an incumbent employee
group, like the legacy American pilots here, had imposed a discriminatory seniority integration upon a group
of incoming employees, but also in the many workplaces where a union had agreed to a two-tier wage
scheme imposing lower wages (and often worse terms
and conditions of employment) on future members of
the bargaining unit for the benefit of the then-incumbent members.6
This combination of conditions can be expected to
recur frequently because an employer who demands
that their employees’ union agree to a two-tier wage
scheme, or any scheme that benefits present employees
6

A two-tier wage scheme is one in which existing employees
keep their current wages and benefits while new hires are
employed at materially lower wages and, usually, materially lower
benefit levels. Two-tier wage scheme became increasingly common
in the mid-1980s and were widely adopted in several industries,
including among airlines, in 1984. George Ruben, U.S. Bureau of
Labor Statistics, “Modest labor-management bargains continue in
1984 despite the recovery,” Monthly Labor Review (Jan. 1985)
(available online at: https://www.bls.gov/opub/mlr/1985/01/art1full.pdf) at 3, 4 (auto manufacturers), 6-7 (airlines), 7 (aircraft and
aerospace).
The Court may take judicial notice that many of the
famous employers listed in this BLS publication as having negotiated a two-tier wage scheme subsequently were debtors in wellpublicized bankruptcy cases, including United Airlines, Northwest
Airlines, Republic Airlines, and Frontier Airlines.

28

over future employees, justifies the demand by reason
of financial hardship. The employer demands concessions from the union to remain competitive — and the
union agrees to take those concessions out of the hide
of the new guys and gals on the job. Since two-tier
wage schemes are justified by the employer’s financial
hardship, it is not surprising that those same financial
hardship leads some of those employers to ultimately
find themselves in bankruptcy. And it is in bankruptcy
where Section 1113 awaits the financially challenged
employer as a tool to leverage further wage and cost
concessions through abrogation of its CBA, leading to
situations like that in the present case, which future
situations will again raise the same important issues.7
The law of the duty of fair representation as it now
exists, with its loophole allowing unions to discriminate against and intentionally harm incoming future
7

Although in this case it was the union, APA, that sought
the discriminatory seniority integration, often it is the employer
who entices the union to discriminate against future bargaining
unit members by offering a two-tier wage scheme to benefit existing union members at the expense of future members.
Many unions are strongly opposed to these two-tier
schemes, both because they violate a fundamental principle of
unionism of equal pay for equal work and because in the long run
they are destructive of unionism. These concerns are discussed on
the websites of many union-side organizations, including: the
United Electrical, Radio & Machine Workers of America
(https://www.ueunion.org/stwd_twotier.html); Teamsters for a
Democratic Union (https://www.tdu.org/how_two_tier_contracts
_hurt_workers_and_weaken_unions); and the Canadian Union of
Public Employees (https://cupe.ca/fact-sheet-two-tier-bargaining
-how-recognize-it-and-reject-it).

29

members of the bargaining unit, is well-established
and may only be changed by an Act of Congress. But
the extension of this loophole in the Second Circuit’s
decision below — allowing a union to discriminate
against and intentionally harm existing members of the
collective bargaining unit when negotiating a new CBA
after the old status quo has been completely wiped
away in bankruptcy by a Section 1113 order — is not
well-established. It is not good policy. It is not consistent with the duty of fair representation. The Second
Circuit’s decision in this case institutionalizes a union’s
discrimination against a disfavored group to whom it
owes a statutory duty not to discriminate and it does so
contrary to the well-established doctrine that a union
bears the full duty of representation towards employees, including the duty of fair representation, once it is
certified to represent them.
The existing loophole in the law permits the union
to discriminate against those who are not yet members
of the bargaining unit. The Second Circuit’s decision
stretches that loophole beyond recognition to allow a
union to discriminate against current members of the
bargaining unit.
The Supreme Court should grant certiorari to
correct the Second Circuit’s erroneous extension of this
legal loophole and to insure that discrimination against
and intentional harm towards disfavored employees,
once eliminated by abrogation of the discriminatory
CBA that initially caused such harm, cannot be
revived, reinstated, and institutionalized during the
employer’s bankruptcy, and that such a reversion to a
pre-bankruptcy discriminatory status quo is a violation
30

of the duty of fair representation that every union owes
to the members of the collective bargaining unit whom
it exclusively represents.
CONCLUSION
The Supreme Court should grant the Petition for a
Writ of Certiorari to the Second Circuit and the
Question Presented should be set for briefing and oral
argument before the Supreme Court.

JACOBSON PRESS P.C.
By:

/s/ Joe D. Jacobson
Joe D. Jacobson, Counsel of Record
Allen P. Press
222 South Central Ave., Suite 550
Clayton, Missouri 63105
Tel: (314) 899-9789
Direct: (314) 899-9790
Fax: (314) 899-0282
Jacobson@ArchCityLawyers.com
Press@ArchCityLawyers.com
Attorneys for petitioners

31

